           Office of Inspector General




May 5, 2004

ANITA J. BIZZOTTO
SENIOR VICE PRESIDENT, CHIEF MARKETING OFFICER

PATRICK R. DONAHOE
CHIEF OPERATING OFFICER AND EXECUTIVE VICE PRESIDENT

WILLIAM P. GALLIGAN
ACTING VICE PRESIDENT, DELIVERY AND RETAIL

SUBJECT: Audit Report – Express Mail Operations
         (Report Number NO-AR-04-008)

This report presents the results of our self-initiated review of Express Mail operations
(Project Number 03YN007AC001).

The Postal Service exceeded its Express Mail service standards in FY 2003 by
delivering 95 percent of Express Mail on time. However, we found over 99 percent of
Express Mail packages destined to Guam and 87 percent to American Samoa did not
meet established service standards. As a result, the Postal Service had a potential
monetary exposure of $376,000 if all customers requested refunds because guaranteed
delivery times were not met.

The Postal Service also met its goal of properly scanning 98.8 percent of Express Mail
packages for fiscal year (FY) 2003. However, during the same period two Postal
Service districts accounted for nearly 10 percent of all Express Mail packages that were
not properly scanned at the time of acceptance. The lack of acceptance scans may
have resulted in the loss of revenue and inadequate response to customer inquiries
about the status of packages. We made three recommendations to Postal Service
management addressing these issues. Management generally agreed with our
recommendations and has initiatives in progress, completed, or planned addressing the
issues in this report. Management’s comments and our evaluation of these comments
are included in the report.

The Office of Inspector General (OIG) considers recommendation 1 significant and,
therefore, requires OIG concurrence before closure. Consequently, the OIG requests
written confirmation when corrective action is complete. This recommendation


   1735 N Lynn St
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
should not be closed in the follow-up tracking system until the OIG provides written
confirmation that the recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff during the
review. If you have any questions or need additional information, please contact
Robert J. Batta, Director, Network Operations - Processing, at (703) 248-2100 or me at
(703) 248-2300.


/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Operations and Human Capital

Attachment

cc: John A. Rapp
    Paul E. Vogel
    Alfred Iniguez
    Julie F. Rios
    Susan M. Duchek
    Joseph K. Moore
Express Mail Operations                                             NO-AR-04-008




                            TABLE OF CONTENTS

 Executive Summary                                                       i

 Part I

 Introduction                                                            1

     Background                                                          1
     Objectives, Scope, and Methodology                                  1
     Prior Audit Coverage                                                2

 Part II

 Audit Results                                                           4

     Express Mail Service Standards Not Met for Guam and American        4
      Samoa
     Recommendations                                                     7
     Management’s Comments                                               7
     Evaluation of Management’s Comments                                 7

     Express Mail Acceptance Scanning                                   9
     Recommendation                                                    10
     Management’s Comments                                             10
     Evaluation of Management’s Comments                               10

     Appendix. Management’s Comments                                   11
Express Mail Operations                                                                               NO-AR-04-008




                                       EXECUTIVE SUMMARY
Introduction                      This report presents the results of our self-initiated review of
                                  Express Mail operations. Our objectives were to determine
                                  whether the Postal Service met Express Mail service
                                  standards and performed proper acceptance scans.

Results in Brief                  The Postal Service exceeded its Express Mail service
                                  standards in fiscal year (FY) 2003 by delivering 95 percent
                                  of Express Mail on time. However, over 99 percent (26,026
                                  of 26,064) of Express Mail packages destined to Guam and
                                  87 percent (1,525 of 1,757) to American Samoa did not
                                  meet established service standards. As a result, the Postal
                                  Service had a potential monetary exposure of $376,000 if all
                                  customers requested refunds because guaranteed delivery
                                  times were not met. In fact, as a result of this problem, the
                                  Postal Service paid over $46,000 in refunds to just
                                  four customers from September 2002 to November 2003.

                                  The Postal Service also met its goal of properly scanning
                                  98.8 percent of Express Mail packages for FY 2003.
                                  However, two Postal Service districts did not scan over
                                  70,000 Express Mail packages at the time of acceptance.
                                  As a result, the Postal Service may have lost some revenue
                                  and cannot adequately respond to customer inquiries about
                                  the status of packages.

Summary of                        We recommended Postal Service management adjust the
Recommendations                   service standard for shipments to remote areas if feasible;
                                  or, promote custom design1 Express Mail service to
                                  customers sending Express Mail packages to Guam and
                                  American Samoa. We also recommended Postal Service
                                  management provide, if feasible, dedicated air service for
                                  Express Mail packages destined to American Samoa.

                                  Additionally, we recommended Postal Service management
                                  establish procedures to improve acceptance scan rates to
                                  the national rate or above for the two Postal Service districts
                                  identified in this report.


1
  Express Mail custom designed service is available only on a scheduled basis between designated Postal Service
facilities or other designated locations for mailable matter presented under the service agreement between the Postal
Service and the mailer (Domestic Mail Manual, Issue 58, E500.4.0 Express Mail).




                                                          i
Express Mail Operations                                                                               NO-AR-04-008




Summary of                        Postal Service management generally agreed with the
Management’s                      findings and recommendations. However, Postal Service
Comments                          management believes providing dedicated air service for
                                  Express Mail packages to American Samoa would be cost
                                  prohibitive and, therefore, not feasible. Management’s
                                  comments, in their entirety, are included in the appendix of
                                  this report.

Overall Evaluation of             Management’s action, taken and planned, should correct
Management’s                      the issues identified in the report. Management’s plans to
Comments                          promote custom design2 for shipments to Guam and
                                  American Samoa which should improve service standards.
                                  Additionally, we accept Postal Service management’s cost
                                  prohibited justification not to provide dedicated air service
                                  for Express Mail packages destined to American Samoa.
                                  Furthermore, the Southeast Area management’s plan to
                                  reinforce acceptance procedures should improve the overall
                                  service of Express Mail.




2
 Express Mail custom designed service is available only on a schedule basis between designated Postal Service
facilities or other designated locations for mailable matter presented under the service agreement between the Postal
Service and the mailer (Domestic Mail Manual, Issue 58, E500.4.0 Express Mail).




                                                          ii
Express Mail Operations                                                                               NO-AR-04-008



                                             INTRODUCTION
Background                        Express Mail is an expedited mail service for documents and
                                  packages weighing up to 70 pounds. Express Mail is one of
                                  the Postal Service’s guaranteed on-time delivery services,
                                  which means customers can receive a postage refund if their
                                  Express Mail package is not delivered on time.

                                  Express Mail next-day and second-day service is accepted
                                  at designated Postal Service facilities, Express Mail
                                  collection boxes, and through pickup service. Express Mail
                                  second-day service is available for three-digit or five-digit
                                  ZIP Code destinations not listed in the Express Mail next-day
                                  service directory. According to the Postal Service’s online
                                  mail directory, second-day guarantee Express Mail service is
                                  also available to American territories3 of the United States.

                                  Express Mail is tracked from the point of acceptance to the
                                  point of delivery. To assure that the initial induction time for
                                  an Express Mail package is established, the package must
                                  be entered into the electronic information and accounting
                                  system by an acceptance scan.4 This initial scan by a
                                  Point-of-Service ONE system is critical because it not only
                                  establishes the time the Express Mail package enters the
                                  mail stream, but also ensures that revenue is collected from
                                  Express Mail corporate accounts and federal agency
                                  customers.

                                  During fiscal year (FY) 2003, the Postal Service delivered
                                  approximately 55.8 million pieces of Express Mail,
                                  generating $888 million5 in revenue, which is a 10.8 percent
                                  decline since FY 2000 when Express Mail generated
                                  $996 million.

Objectives, Scope,                Our objectives were to determine whether the Postal Service
and Methodology                   met Express Mail service standards and performed proper
                                  acceptance scans. To accomplish our objectives, we
                                  interviewed Postal Service managers and employees.

3
  The Postal Service provides service to the following American territories: American Samoa, Micronesia, Guam,
Marshall Islands, Mariana, Puerto Rico, Palau, and the Virgin Islands.
4
  One of the scanning events for Point-of-Service ONE is to accept Express Mail and delivery confirmation pieces into
the mailstream allowing the infrastructure to electronically store delivery records and to permit easy access by
customers and Postal Service employees. All domestic delivery records are maintained electronically in a national
database, the Product Tracking System, Handbook PO-610, Signature Capture and Electronic Record Management:
Manager’s Guide to Standard Operating Procedures.
5
  $888 million represents 1.3 percent of total mail revenues for FY 2003.



                                                          1
Express Mail Operations                                                          NO-AR-04-008



                          We also reviewed regulations, manuals, instructions, and
                          other supporting documentation, including Express Mail
                          service standards and Electronic Marketing and Reporting
                          System management reports. In addition, we analyzed
                          Express Mail performance reports from the WEB Enterprise
                          Information System. However, we did not establish the
                          reliability of this data due to the limited scope of this review.
                          Nothing came to our attention to suggest data used was
                          unreliable. We also benchmarked with FedEx and the
                          United Parcel Service to determine their service standards
                          for mail destined to American territories.

                          We conducted this review from September 2003 through
                          May 2004 in accordance with generally accepted
                          government auditing standards and included such tests of
                          internal controls as were considered necessary under the
                          circumstances. We discussed our conclusions and
                          observations with appropriate management officials and
                          included their comments, where appropriate.

Prior Audit Coverage      In January 2004, we issued a management advisory report,
                          Express Mail Processing in the Los Angeles District (Report
                          Number NO-MA-04-001). This review noted the Postal
                          Service did not collect postage due from some Express Mail
                          packages originating in the Los Angeles District. The review
                          also found problems with missing acceptance data for some
                          Express Mail packages. As a result, the Postal Service may
                          have lost a projected $185,600 in revenues from
                          February 2002 through January 2003. In addition, the
                          missing acceptance data made it difficult to respond to
                          customer inquiries about the status of Express Mail
                          packages.

                          We recommended Postal Service management collect
                          postage due from unpaid Express Mail packages. To
                          prevent recurrence, we recommended the Postal Service
                          provided training to appropriate staff and adherence to
                          established procedures. Postal Service management
                          generally agreed with our findings and recommendations
                          and recovered $157,427 in revenue from previously unpaid
                          Express Mail packages.

                          In October 1996, the General Accounting Office (GAO)
                          issued Revenue Losses From Express Mail Accounts Have
                          Grown (Report Number GAO/GGD-97-3). This review found


                                             2
Express Mail Operations                                                      NO-AR-04-008



                          that some mailers obtained Express Mail services using
                          invalid Express Mail Corporate Accounts, and the Postal
                          Service did not always collect the postage due. In addition,
                          the Postal Service accepted and delivered some Express
                          Mail packages without recording data when accepting the
                          packages. As a result, the Postal Service could not
                          accurately track and report these transactions.

                          The GAO recommended the Postal Service determine
                          whether Express Mail Corporate Accounts are cost effective.
                          If the Postal Service determined the Express Mail Corporate
                          Accounts to be necessary, the GAO recommended stronger
                          requirements for opening accounts and managers and
                          employees be held accountable for handling transactions in
                          accordance with policies and procedures. Postal Service
                          management agreed with the GAO’s findings and
                          conclusions.




                                            3
Express Mail Operations                                                                                   NO-AR-04-008



                                             AUDIT RESULTS
Express Mail Service              The Postal Service exceeded its FY 2003 goal6 by delivering
Standards Not Met for             95 percent of Express Mail packages on time. However,
Guam and American                 over 99 percent (26,026 of 26,064) of Express Mail
Samoa                             packages destined to Guam and 87 percent (1,525 of 1,757)
                                  to American Samoa did not meet established service
                                  standards.7 As a result, the Postal Service had a potential
                                  monetary exposure of $376,000 if all customers requested
                                  refunds because of late receipt of Express Mail packages.

                                  Chart A illustrates next-day and second-day Express Mail
                                  service performance for various American territories and
                                  states outside the contiguous United States for FY 2003.
                                  The chart illustrates that in FY 2003 Express Mail packages
                                  destined to Guam and American Samoa did not meet
                                  service standards.8

                                                                      Chart A
                                                FY 2003 Express Mail Service Performance

                                                                                         Guam
                                                               99%
                                                   100%              87%                 American Samoa

                                                    80%                                  Hawaii
                                    Percentage      60%
                                                                       18%               Alaska
                                    Not On Time     40%
                                                                        11%
                                                    20%                    7% 5%         Caribbean (only US Virgin
                                                                                         Islands and Puerto Rico)
                                                     0%                                  National Average




                                  The Postal Service offers guaranteed second-day Express
                                  Mail service to the continental United States and some
                                  remote areas (including Guam and American Samoa). If
                                  these standards are not met, the customer can request a
                                  refund as a result of late delivery.


6
  The Postal Service’s FY 2003 Express Mail service goal was to reach a 94 percent on-time delivery rate.
7
  Data was obtained from the WEB Enterprise Information System. Since Postal Service accounting period 7
FY 2002, the WEB Enterprise Information System has been used to track Express Mail performance measures.
8
  We evaluated the service performance for mail destined to other American territories and determined they were not
significantly lower than the Postal Service’s Express Mail national average of 95 percent on-time delivery, therefore,
we did not deem it necessary to include them in this review.



                                                           4
Express Mail Operations                                                                                NO-AR-04-008



                                  The Postal Service did not meet its service goals to Guam
                                  because the service standards do not account for the
                                  international dateline.9. The international dateline impacts
                                  Express Mail packages originating in the continental United
                                  States because one day automatically elapses when
                                  crossing the dateline from east to west. Consequently,
                                  Express Mail packages destined to Guam, which have a
                                  second-day service guarantee, technically only have
                                  one day to meet the established service standard. Postal
                                  Service officials agreed the international dateline presents a
                                  challenge for on-time Express Mail delivery to Guam.

                                  We examined Postal Service, FedEx, and the United Parcel
                                  Service delivery service standards for mail destined to Guam
                                  and American Samoa. Unlike the Postal Service, both
                                  Federal Express and the United Parcel Service10 account for
                                  the international dateline when setting their service
                                  standards. Chart B illustrates the service standards of the
                                  different entities for mail destined to Guam and American
                                  Samoa.

                                                                      Chart B
                                                   USPS          FedEx                                   UPS
                                     American Next 2-Day 3- Next 2-Day  3-  Next                          2-  3-
                                     Territory Day       Day Day       Day  Day                          Day Day
                                     American        X                 X+DL                                   X
                                      Samoa
                                      Guam           X                 X+DL                                      X


                                  Legend:
                                  X: represents the service guarantee day
                                  DL: represents international dateline

                                  In addition, service standards were not met because there
                                  were limited commercial flights to both destinations. A
                                  Postal Service official stated that before October 11, 2003,
                                  Express Mail packages were carried on commercial flights to
                                  Guam and American Samoa only when cargo space was
                                  available. However, as of mid-October 2003, the Postal
                                  Service entered into a four-year contract with Continental
                                  Airlines providing dedicated air service and cargo space for

9
  The international dateline is an imaginary line drawn north and south through the Pacific Ocean. When it is
12:01 a.m. Sunday just west of the line, it is 12:01 a.m. Saturday just east of it.
10
   The United Parcel Service accounts for the international dateline by adding one day to the two-day delivery date.



                                                          5
Express Mail Operations                                                                            NO-AR-04-008




                                 mail destined to Guam. This should address the issue of
                                 limited commercial flights to Guam.

                                 Because of these conditions, the Postal Service had a
                                 potential monetary exposure of $376,000 if all customers
                                 requested refunds for late receipt of packages. (See
                                 Chart C for minimum refund calculation).


                                                                   Chart C

                                                        FY 2003
                                                      Express Mail  Minimum
                                   American Territory Packages Not Postage per                    Total
                                                      Delivered on  Mailpiece
                                                          Time
                                        Guam                  26,026          $13.6511        $355,254.90
                                    American Samoa             1,525          $13.65           $20,816.25
                                           Total                                              $376,071.15

                                 In fact, the Postal Service paid over $46,000 to the following
                                 customers who received refunds for mail destined for Guam:

                                     •    From September 2002 to November 2003, a
                                          customer mailing from the Santa Ana, California,
                                          District received over $27,000 in refunds for Express
                                          Mail packages that did not meet second-day service
                                          standards for on-time delivery.
                                     •    From March 2003 to September 2003,
                                          three customers mailing from the Los Angeles,
                                          California, District received over $19,000 in refunds
                                          for Express Mail packages that did not meet
                                          second-day service standards for on-time delivery.

                                 Customers that are aware the Postal Service cannot meet
                                 service standards for mail destined to Guam are potentially
                                 receiving Express Mail service without cost. In addition, by
                                 not meeting service standards it guarantees, the Postal
                                 Service advertising could be considered misleading.
                                 Consequently, this could erode consumer confidence in
                                 Postal Service products and impact on brand recognition.

11
  As of June 30, 2002, the minimum postage for mailing an Express Mail package from a post office to a domestic
addressee was $13.65.



                                                        6
Express Mail Operations                                                                               NO-AR-04-008




Recommendation                    We recommend the Senior Vice President and Chief
                                  Marketing Officer, in coordination with the Chief Operating
                                  Officer and Executive Vice President:

                                  1. Adjust the service standard, if feasible, for shipments to
                                     remote areas; or, promote custom design12 Express Mail
                                     service to customers sending Express Mail packages to
                                     Guam and American Samoa.

Management’s                          Postal Service management agreed with this
Comments                              recommendation and has taken action to improve
                                      Express Mail service to customers sending Express Mail
                                      packages to Guam and American Samoa. The Chief
                                      Operating Officer and Chief Marketing Officer drafted a
                                      letter dated February 5, 2004, that outlined steps to
                                      promote custom design Express Mail service to Guam
                                      and American Samoa. This letter was effective March 1,
                                      2004, and was issued to Postal Service officials13 tasked
                                      with implementing this action.

Evaluation of                         Postal Service management’s comments are responsive
Management’s                          to this recommendation. Management’s actions to
Comments                              promote custom design for shipments to Guam and
                                      American Samoa should address the issues identified in
                                      the finding.

Recommendation                    2. Provide dedicated air service, if feasible, for Express Mail
                                     packages destined to American Samoa.

Management’s                          Postal Service management generally agreed with this
Comments                              recommendation. Postal Service management was in the
                                      process of determining the full cost to provide dedicated
                                      air service for Express Mail packages to American
                                      Samoa. However, Postal Service management is certain
                                      the cost to implement this action would exceed projected
                                      revenue, and therefore believes this recommendation is
                                      not feasible.



12
   Express Mail custom designed service is available only on a schedule basis between designated Postal Service
facilities or other designated locations for mailable matter presented under the service agreement between the Postal
Service and the mailer (Domestic Mail Manual, Issue 58, E500.4.0 Express Mail).
13
   All Vice Presidents, Area Operations; Manager, Capital Metro Operations; Managers, Operations Support;
Managers, Marketing (Area); and Managers, Sales (Area); and a copy to District Managers.



                                                          7
Express Mail Operations                                                  NO-AR-04-008




Evaluation of             Postal Service management concluded implementing this
Management’s              recommendation was cost prohibitive, and therefore does
Comments                  not plan corrective action. We concur with this conclusion
                          and consider this recommendation closed.




                                        8
Express Mail Operations                                                                               NO-AR-04-008




Express Mail                      The Postal Service successfully met its goal of properly
Acceptance Scanning               scanning 98.8 percent of Express Mail packages14 for
                                  FY 2003. However, the Suncoast District did not scan
                                  35,785 (3.2 percent) 15 of its Express Mail packages at the
                                  time of acceptance, and the South Florida District failed to
                                  scan 34,526 (3.2 percent).16 These two districts’ missed
                                  acceptance scan rate was more than twice the national
                                  average of 1.2 percent.17 Chart D compares FY 2003 missed
                                  acceptance scan rates.

                                                                          Chart D
                                                   Percentage of Missed Acceptance Scans,
                                                    Postal Districts vs. National Average for
                                                                     FY 2003
                                                           3.5%
                                                           3.0%
                                                           2.5%
                                                           2.0%
                                                   Percent
                                                           1.5%
                                                           1.0%
                                                           0.5%
                                                           0.0%



                                                                                               E
                                                                                A
                                                                    ST




                                                                                           G
                                                                              ID
                                                                    A




                                                                                           A
                                                                             R
                                                                   O




                                                                                          R
                                                                            O


                                                                                        VE
                                                                C


                                                                          FL
                                                               N




                                                                                       A
                                                              SU



                                                                         TH



                                                                                       L
                                                                                      A
                                                                        U



                                                                                  N
                                                                    SO



                                                                                  O
                                                                               TI
                                                                              A
                                                                              N




                                  These two districts accounted for nearly 10 percent of all
                                  Postal Service Express Mail packages that lacked
                                  acceptance scans during the same period.

                                  As a result of the missing acceptance scans, the Postal
                                  Service: (1) cannot adequately respond to customer inquiries



14
   Express Mail packages include Express Mail corporate and federal agency accounts as well as Express Mail
packages affixed postage.
15
   3.2 percent equals 35,785 of 1,122,261 Express Mail packages the Suncoast District did not scan at time of
acceptance.
16
   3.2 percent equals 34,526 of 1,091,606 Express Mail packages the South Florida District did not scan at time of
acceptance.
17
   1.2 percent equals 707,877 of 59,541,991 Express Mail packages the Postal Service did not scan at time of
acceptance.



                                                          9
Express Mail Operations                                                                           NO-AR-04-008



                                about the status of packages; (2) may lose revenue18
                                because some of the accounts have not been charged; and
                                (3) has incomplete data to report on-time delivery rates for
                                Express Mail.

Recommendation                  We recommend the Acting Vice President, Delivery and
                                Retail, direct the District Managers for the Suncoast and
                                South Florida Districts to:

                                3. Establish procedures to improve acceptance scan rates
                                   equal to or above the national rate.

Management’s                    Postal Service management agreed with this
Comments                        recommendation. Southeast Area management stated that it
                                plans to work with the South Florida and Suncoast districts to
                                reinforce procedures for Express Mail acceptance.
                                Southeast Area management plans to issue a letter outlining
                                the acceptance procedures for both districts.

Evaluation of                   Postal Service management’s comments are generally
Management’s                    responsive to this recommendation. Management’s planned
Comments                        actions to reinforce acceptance procedures should correct
                                the issues identified in this finding.




18
   We did not determine the amount of lost revenue because Express Mail Corporate Account labels are maintained
at the Postal Service unit where Express Mail labels were inducted. The Suncoast District has over 220 Postal
Service units that maintain Express Mail labels, while the South Florida District has approximately 120.



                                                       10
Express Mail Operations                               NO-AR-04-008



                    APPENDIX. MANAGEMENT’S COMMENTS




                                  11
